                   AUDIT REPORT


                  Audit of NRC’s Accounting and Control
                     Over Time and Labor Reporting

                       OIG-08-A-11 June 17, 2008




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                UNITED STATES
                        NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  June 17, 2008


MEMORANDUM TO:             R. William Borchardt
                           Executive Director for Operations

                           James E. Dyer
                           Chief Financial Officer



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   AUDIT OF NRC’S ACCOUNTING AND CONTROL OVER
                           TIME AND LABOR REPORTING (OIG-08-A-11)


Attached is the Office of the Inspector General’s (OIG) audit report, Audit of NRC’s
Accounting and Control Over Time and Labor Reporting.

This report presents the results of the subject audit performed by Leonard G. Birnbaum
and Company, under contract to the NRC Office of the Inspector General. Agency
comments provided at the exit conference on April 28, 2008, have been incorporated,
as appropriate, into this report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Steven Zane, Team Leader, Financial and Administrative Audit Team, at
415-5912.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
Eric J.Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
      Nuclear Regulatory Commission
      Office of the Inspector General
              Office of Audits



        Independent Accountant’s Report
On the Application of Agreed-Upon Procedures
  On the Nuclear Regulatory Commission’s
          Time and Labor System




              Contract No.: SAQMPD040033
              Order No. : DR-36-07-346

              Report Date: May 8, 2008
        TABLE OF CONTENTS

                  DESCRIPTION                 PAGE

Executive Summary                              1

Abbreviations and Acronyms                     3

Independent Accountant’s Report                4

     • Background                              4

     • Purpose & Scope                         4

     • Findings                                5

     • Consolidated List of Recommendations    11

     • Methodology                             12

     • Agency Comments                         14
                                EXECUTIVE SUMMARY

Under contract to the Nuclear Regulatory Commission (NRC), Office of the Inspector General
(OIG), Leonard G. Birnbaum and Company (LGB), LLP, performed certain agreed-upon
procedures on NRC’s Time and Labor (T&L) system. The objectives of this audit were to
determine whether:

       •   NRC has established and implemented internal controls over time and labor reporting
           to provide reasonable assurance that hours worked in pay status and hours absent are
           properly reported, and
       •   The time and labor system can be easier and more efficient to use.

The effort required testing internal controls at three offices: NRC Headquarters in Rockville,
Maryland; Region III in Lisle, Illinois; and Region IV in Arlington, Texas.

The review also encompassed (1) the form and structure of agency bills to licensees including
obtaining industry views regarding the level of detail needed for billing, and (2) the usefulness of
agency management reports considering the significant number of existing Technical
Assignment Control (TAC) codes in the T&L system.

The results of the audit were as follows:

       Basic Internal Controls:

               Identified internal controls were adequate for security, recordation
               and reporting purposes.

       Number of T&L Assignments:
               Despite recent management initiatives that resulted in reducing the
               number of open assignments, the total universe of open T&L
               assignments (TACs and Inspection Report [IRs] assignments) is
               now greater than the number at the start of this review. At the
               outset of the audit engagement it was estimated that there were
               approximately 10,000 open T&L assignments. As of January 28,
               2008, there were 19,712 open assignments identified in the system
               database. By March 21, 2008, there were 20,041 open assignments
               in the system database. The primary driver for the increased
               number of TACs is related to project management and has nothing
               to do with T&L or licensee billing.




                                                 1
     Parallel Automated and Paper Documentation in the T&L System:

            We found that despite the controls embodied in the automated
            T&L recording process, redundant hard copies of T&L documents
            are retained to support and document employee time charges.

     Retention Requirements for T&L Forms:
            T&L supporting paper documentation, which is rarely examined
            after the first year (12 months) of its creation, is retained for an
            unnecessarily long (six years and three months) period of time.

     Form and Structure of Agency Bills to Licensees and Industry Views:
            We found that the interface of the T&L system with the Fee Billing
            System is operating in accordance with prescribed policies and
            procedures. Assessments by industry representatives as to the
            appropriateness and usefulness of the structure and level of detail
            currently included in invoices from NRC were generally mixed.
            While some comments were positive and complimentary, others
            expressed discontent and requests for improvements.
     Management Reporting:

            We found that there is ample reporting on the status of interim and
            final processing of employee time charges, and on the status of
            payroll processing. Further, there are a variety of project
            management reports on the status of work assignments and
            performance indicators on specific NRC programs.

            What is lacking, however, is feedback to upper management on a
            regular basis as to the level of on-going open assignment activity
            (TACs and IRs) in the T&L System itself at regular reporting
            intervals.

Recommendations

     This report makes six recommendations. A Consolidated List of Recommendations
     appears on page 11 of this report.

Agency Comments

     At an exit conference held on April 28, 2008, agency managers provided comments
     concerning the draft report. We modified this report in response to their comments, as
     we deemed appropriate.




                                              2
Abbreviations and Acronyms

AUP             Agreed-Upon Procedures

EPM             Enterprise Project Management (subsystem)

IP              Inspection Procedures

IR              Inspection Report

LFT             License Fee Team

LGB             Leonard G. Birnbaum and Company, LLP

NARA            National Archives and Records Administration

NEI             Nuclear Energy Institute

NRC             Nuclear Regulatory Commission

NRO             Office of New Reactors

NRR             Office of Nuclear Reactor Regulation

OIG             Office of the Inspector General

RITS            Regulatory Information Tracking System

RPS             Reactor Program System

SAR             Summary Approval Report

T&L             Time and Labor

TAC             Technical Assignment Control

TRIM            Time, Resource and Inventory Management (subsystem)




                                    3
                              Independent Accountant’s Report
                       on the Application of Agreed-Upon Procedures
                          on the Nuclear Regulatory Commission’s
                                  Time and Labor System


                                         Background

Salaries and benefits for the U.S. Nuclear Regulatory Commission’s (NRC’s) approximately
3,500 employees account for about 60 percent of NRC’s annual obligations. Approximately 90
percent of the salaries and benefits are recovered through billings to NRC licensees.

NRC’s Time and Labor (T&L) system is intended to adequately support employees’ pay and
show the number of hours employees are either working or are in leave status. The system
provides data in support of entitlements to overtime pay, premium pay, and compensatory time
earned and used. An accurate and reliable system of collecting T&L data is necessary to
provide a basis for (1) allocating employees’ time to the agency’s program and performance
objectives, (2) assessing NRC fees, and (3) financial reporting.


                                      Purpose and Scope

Under contract to NRC, Office of the Inspector General (OIG), Leonard G. Birnbaum and
Company (LGB), LLP, performed agreed-upon procedures to review NRC’s T&L System. The
objectives of this audit are to determine whether:

       •   NRC has established and implemented internal controls over time and labor reporting
           to provide reasonable assurance that hours worked in pay status and hours absent are
           properly reported, and
       •   The time and labor system can be easier and more efficient to use.

These objectives included performing an analysis of the number of and process for establishing
Technical Assignment Control (TAC) codes. This agreed-upon procedures engagement was
conducted in accordance with auditing standards generally accepted in the United States of
America and Government Auditing Standards issued by the Comptroller General of the United
States. These standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The sufficiency of these procedures is
solely the responsibility of NRC OIG. Consequently, we make no representation regarding the
sufficiency of the procedures described below either for the purpose for which this report has
been requested or for any other purpose.




                                               4
                                         Findings


A. Basic Controls

We found that appropriate T&L system internal controls have been established for each of
the basic functions related to labor recording: recording, approving, and processing time and
attendance data and preparing management reports. Tests at NRC operating units
determined that the identified established controls were, in fact, in place and implemented at
operating levels. We consider the identified controls to be adequate for security, recordation
and reporting purposes. Analysis of the risk of error in routine processing of time and
attendance data elicited the conclusion that such risk is low.

While we consider the existing controls to be effective, greater consistency in time reporting
could be achieved by issuing guidance covering activities for which there is no articulated
policy, such as time charging while in a travel status.


B. Number of Assignments (TACs and Inspection Reports [IRs])

At the start of this engagement, it was estimated that there were over 10,000 open TAC/IR
assignments in the T&L system. The determination of the cause(s) of this volume, together
with suggestions for process improvements, was cited as one of the primary goals for this
engagement. Recently, NRC management initiatives, including guidance issued on
January 14, 2008, made a concerted effort to address these imbalances, with some apparent
success. For example, a recent Office of the Chief Financial Officer report showed that the
number of TACs and IRs with less than 8 recorded hours had been reduced by 3,681
assignments between June and October 2007. Currently, however, the total number of
TACs and IRs is greater than the number at the beginning of the engagement. At the outset
of the audit engagement it was estimated that there were approximately 10,000 open T&L
assignments. As of January 28, 2008, there were 19,712 open assignments identified in the
system database. By March 21, 2008, there were 20,041 open assignments in the system
database.

The current array of assignments by NRC organization shows a large concentration of
assignments in two organizations, (1) Office of New Reactors (NRO) and (2) Office of
Nuclear Reactor Regulation (NRR).

The principal drivers for the establishment of new assignments are the detail tracking
requirements of Project Management subsystems used in the “Regulatory Information
Tracking System” (RITS) and the “Reactor Program System” (RPS). Subsystems used in
NRC offices regarded as “RITS Offices” include the “RITS Technical Assignment Control”
(TAC); RPS Inspection Planning (IP), “Time, Resource and Inventory Management”
(TRIM); and “Enterprise Project Management” (EPM). Such subsystems tend to initially
input assignments into the T&L system on the basis of Project Management, Budgeting,
Performance Measurement, Billing and other management objectives for subsequent



                                             5
    tracking purposes. The prescribed categories of time charge collection tend to be at a
    “Task” or “Procedure” assignment identification. Quite often, these are at relatively low
    incremental levels of effort.

    There have been numerous prior reports, reviews and studies made which included
    assessments of the T&A System. Among these were:

                          9    Financial Statement Audit Reports (R. Navarro & Associates)
                          9    NRC Performance and Accountability Reports1
                          9    OMB Circular A-123 Assessments2
                          9    OIG Reports3
                          9    Business Improvement Project Studies
                          9    Various NRC management reviews and related directives

    All of these expressed concern over the significant number of assignments established, the
    number of assignments with no activity for long periods, the number of assignments with
    low hourly postings (8 hours or less), etc.

    Recommendations:

    We recommend that the Chief Financial Officer:

    1. Establish high topical level assignment codes in the T&L system.

    We recommend that the Chief Financial Officer and the Executive Director for Operations:

    2. Develop and implement other types of recordation vehicles, outside of the T&L system,
       to track specific Project Management and Performance objectives, as warranted.


    C. Redundant Automated and Hard Copy Controls

    There is a significant paper trail in place in the T&L operating procedures, in addition to the
    requirements of the automated T&L system, to support and document time charges. It was
    generally felt by all interviewees during our review that the paper flow should be curtailed if
    electronic means are otherwise available.


1
  The auditor’s report contained in the 2006 Performance and Accountability Report identified material weaknesses
in the fee billing process, noting that quality assurance procedures do not address the completeness of TAC controls
as compared with TACs available to be billed or simply those that were billable in the previous billing cycle. The
auditor’s report also cited significant underbillings (approximately $750,000).
2
  The FY 2006 OMB Circular A-123 assessment observed “…large number of prior period time and labor
adjustments indicate that bi-weekly time sheet certification may not be effective…”, and “…errors in T&L reporting
have the potential to impact the Fee Revenue Financial Statement.”
3
  OIG report OIG-05-A-11, April 13, 2005, noted, “While the implementation of RPS has allowed for a single
system for entering inspection information, the information is not well protected, is not complete, and is not fully
accurate.”


                                                         6
In the review of the T&L system design and processes, we found that the automated portions
of the system incorporate the following types of controls:

                  •   Employee Approved Access
                  •   Personal Identification Codes
                  •   Personal Passwords
                  •   Designations of Officials’ Positions
                  •   Establishment of Work Schedules
                  •   Review of Time Charges for Proper Leave and Administrative Codes
                  •   Summary Approval Processing
                  •   Edit/Error Runs and Routines

Similarly, the paper portions of the T&L system require the following documentation:

                  •   Hours of Work Request
                  •   Credit Hour Plans and Certification
                  •   Requests for Leave or Approved Absence
                  •   Requests for Authorization for Irregular or Occasional Overtime or
                      Compensatory Time
                  •   Review of documentation (e.g., jury notice, doctor’s letter), as
                      required, supporting leave charges
                  •   Original Signatures of Employee and Approving Official on Summary
                      Approval Report (SAR)

Several NRC staff interviewed during our review made the following point: If an employee
is cleared for security access into the T&L System, has a Personal Identification Code, and
has been issued a system password for data entry and review, then many of the required
paper forms to support time charges that have been otherwise been entered into an
automated system seem duplicative.

Further, in many cases it is very difficult to get hardcopy employee signatures and other
required documentation on a timely basis under the current system requirements. This is
especially true in the case of employees working at sites remote from the timekeeper and
approving officials (e.g., Resident Inspectors). These individuals have to send timesheet and
other supporting documents by facsimile to the Unit timekeeper in advance in order to meet
the pay period due date requirements. Use of electronic signature capabilities may be
sufficient for certification and approval.

The cause of this condition seems to be a perpetuation of the use of “NRC Forms,” which
may have been practical at one time, but could have been superseded with the introduction
of specific automated controls in the system. There likely has not been a recent evaluation
of the need for such paper requirements. We were advised that the Office of the Chief
Financial Officer is currently evaluating the use of electronic signatures.




                                            7
Timekeepers, in general, spend an inordinate amount of time copying, mailing, filing,
storing, shredding, etc., for a T&L system that is supposed to be fully automated, with built-
in internal controls.

The operational effect on unit staff employees and approving officials is similarly
burdensome. Frequently, facsimile copies and mailings of paper support documents
consumes the time of employees who could otherwise be productively engaged in
performing billable work projects. We did not attempt to quantify the monetary impact of
such efforts. However, with NRC employee population of about 3,500, some of whom are
in remote locations, the dollar impact could be significant.

Recommendations:

We recommend that the Chief Financial Officer:

3. Conduct a detailed system analysis and eliminate redundant paper forms that are not
   needed.

4. Use electronic signatures for time reporting and approval.


D. Document Retention Requirements

With respect to retention requirements, the amount of required paper (e.g., several pages),
per employee, per unit, per pay period (26 pay periods/year), for 6 years and 3 months
becomes very burdensome at the operating level. Beyond the first year of retention, it is
doubtful that such paper support is ever examined further.

As with the case of the basic requirements for the paper forms themselves, we believe that
the retention requirements are simply a perpetuation of the initial time frames established by
NRC when the requirements were first imposed. Most of the required forms reviewed in the
system are self-imposed, internal NRC forms.

Based on published budgetary data, NRC employs in excess of 3,500 employees. All
employees’ time charges are incorporated into the T&L system for processing.
Conservatively, if only 3 to 5 pages of NRC forms are required to be retained per employee,
this means that 10,500 to 17,500 pieces of paper are being saved and filed each pay period.
Extending that by 26 pay periods in a year, the annual total is between 273,000 to 455,000
pieces of paper per year. While the full retention period for forms is 6 years and 3 months,
most organizations keep files for 7 years. If those amounts are extrapolated to the full
retention period, it would indicate that there could be as much as 1,911,000 to 3,185,000
pieces of paper being stored or otherwise warehoused by NRC on a continuing basis.

While the General Records Schedules issued by the National Archives and Records
Administration (NARA) require retention of records until the earlier of six years or audit by
the Government Accountability Office, NARA, under the authority of 44U.S.C. §3303(2),



                                             8
may permit disposal of records not needed in the transaction of current business and that do
not appear to have sufficient administrative, legal, research, or other value to warrant their
further preservation by the Government.

Recommendation:

We recommend that the Chief Financial Officer:

5. Coordinate with the National Archives and Records Administration to shorten record
   retention requirements for T&L records.


E. Billing Detail and Industry Views

Generally, billings to clients are made on a quarterly basis. A quarterly billing run is made
and reports run for final certification. Data files are downloaded (same as reports). Invoices
are processed to clients as indicated from the runs. The T&L data by this point have been
consolidated to accommodate line item billing in some summary fashion, by client. The
minute detail of incremental time recording (¼ hour, ½ hour, ¾ hour, etc., increments) tends
to be hidden in the summaries. Billing detail, however, will reflect the line items of
established TACs.

The principal drivers for the detail billing elements (by TAC) in invoices to customers are the
previously discussed tracking requirements of project management subsystems used in the
Regulatory Information Tracking System (RITS) and the Reactor Program System (RPS), and
their related management subsystems.

LGB asked the License Fee Team (LFT) group if the level of detail being captured at these
incremental levels was critical for billing purposes. We were informed that in some cases,
the level of detail being billed may require an invoice of 10 or more pages. The overall
response of the group was that they need the total of the effort charged to be reflected in the
billings, but that it was not necessary for them to have minute details if they are summarized
accurately and in their entirety.

LGB also solicited industry views regarding the general form and structure of NRC bills,
with particular interest in the level of detail needed for payment review and approvals. The
industry responses were somewhat mixed.

Summary results from materials licensees indicated general satisfaction with the (1) level of
detail provided in NRC bills and (2) additional support provided by the License Fee Team,
when needed. Further improvement was desired by the Materials Licensees in the areas of
(1) timing of the billings – i.e., reducing the lag time between the date the service is
performed and the date the bill issued, and (2) consistency in the charging of apparently
similar services.




                                             9
Responses from individual reactor licensees tended to fall generally in the middle of the
identified satisfaction ranges, by category. Narrative comments received from these reactor
licensee representatives indicated various areas where NRC could address possible
improvement revisions.

Our review in this area was necessarily limited in scope. As indicated, the results of our
review in this area showed that the preliminary impact on customer satisfaction is mixed.
The respondents were generally complimentary on the support given by the License Fee
Team to assist them in resolving billing questions or open issues.


F. Management Reporting

We found that there is ample reporting on the interim and final processing of the status of
employee time charging, and on the status of payroll processing. Further, there are a variety
of project management type reports on the status of work assignments and performance
indicators on specific NRC programs.

What is lacking, however, is feedback to upper management on a regular basis as to the
level of on-going assignment activity in the T&L system itself at regular reporting intervals.
In other words, we found no recurring reporting that would advise management on the total
number of TACs and IRs open in the system at specific points in time (e.g., monthly,
quarterly, semi-annually, etc.). Based on interviews held during the engagement, there has
never been a formal, recurring, status report provided to upper management on the number
of open work assignments as part of the normal T&L system outputs. Such information
appears to be available to upper management by specific request only. Since the number of
open assignments has been the focus of a good deal of management attention in the past, it is
our opinion that such information should be a normal part of the management reporting
structure.

We believe the basic cause of this condition is that such reporting requirements on the status
of open assignments has never been mandated, formalized and incorporated into the T&L
system outputs. Inquiries on the status of open assignments at points in time have
previously been made largely on an ad hoc basis.

The obvious effect, as has been discussed in other sections of this report, is that numerous
prior reports, reviews and studies had to be made on an ad hoc basis to address the
possibility that the quantity of open work assignments in the T&L System has become
excessive.

Recommendation:

We recommend that the Chief Financial Officer:

6. Develop a formal report on the number of open work assignments incorporated in the
   T&L System and issue the report at regular intervals.



                                            10
                         Consolidated List of Recommendations


We recommend that the Chief Financial Officer:

1. Establish high topical level assignment codes in the T&L system.

We recommend that the Chief Financial Officer and the Executive Director for Operations:

2. Develop and implement other types of recordation vehicles, outside of the T&L system,
   to track specific Project Management and Performance objectives, as warranted.

We recommend that the Chief Financial Officer:

3. Conduct a detailed system analysis and eliminate redundant paper forms that are not
   needed.

4. Use electronic signatures for time reporting and approval.

5. Coordinate with the National Archives and Records Administration to shorten retention
requirements for T&L records.

6. Develop a formal report on the number of open work assignments incorporated in the
   T&L System and issue the report at regular intervals.




                                           11
                                            Methodology

The procedures we performed are as follows:

   •   Reviewed the internal controls over NRC’s T&L system to identify any
       cost effective opportunities for process improvements (including any
       opportunities to prevent/detect fraud or abuse). All aspects of the T&L
       system were reviewed, including:
                              ¾   Recording time
                              ¾   Approving
                              ¾   Processing
                              ¾   Preparing management reports

   •   Reviewed and tested the application of internal controls at the following
       NRC offices: the Office of New Reactors and the Office of Nuclear
       Reactor Regulation in Rockville, Maryland; NRC Region III in Lisle,
       Illinois; and NRC Region IV in Arlington, Texas. This review and testing
       included determining that (a) hours charged to overtime and the various
       types of compensatory time are recorded and approved in a consistent
       manner and in accordance with agency policy, and (b) controls over
       various types of work schedules (e.g. telecommuting) are sound and
       operating effectively.

   •   Determined whether (and where) opportunities exist to make the T&L
       system easier and more efficient to use, particularly in light of the number
       of open Technical Assignment Control (TACs) codes. This aspect
       included review of the process for establishing TACs.

   •   Examined the operating policies and procedures of the T&L System as
       they relate to automated versus hard copy controls.

   •   Assessed the appropriateness of T&L record retention policies.

   •   Reviewed the form and structure of NRC bills to licensees to determine
       the extent and level of depth of labor reporting that is considered required
       for program and performance reporting and related billings to licensees.

       In the performance of this procedure, we conducted the following
       activities:
          ¾ Held meetings with the members of NRC License Fee Team in
            Rockville, Maryland.
          ¾ Obtained explanations on the interface of the T&L system with the
            Fee Billing System.




                                                12
       ¾ Obtained an overview of the process via walk-through illustrations
         of the billing procedures, including the ultimate capturing of the
         labor effort into the billing system and final processing of invoices.
       ¾ Solicited industry views on their satisfaction with the form and
         structure of agency bills, including the level of reporting detail
         provided.

•   Reviewed the usefulness of agency management reports as currently
    structured taking into consideration the number of existing TACs.
    In the performance of this procedure, we traced the process steps made for
    recording, approving, and processing time in the T&L system. We also
    identified and reviewed the management reporting vehicles at each phase
    of the process.




                                           13
